Audit Report




OIG-10-036
SAFETY AND SOUNDNESS: Material Loss Review of First Bank
of Idaho
February 16, 2010




Office of
Inspector General
Department of the Treasury
 
Contents

Audit Report................................................................................................. 1

    Results in Brief ............................................................................................ 2

    Causes of First Bank of Idaho’s Failure ...........................................................          3
         High Concentrations in Construction and Land Loans ..............................                       4
         Decline in Real Estate Values ...............................................................           5
         Inadequate Capital Levels ....................................................................          5
         Unstable Funding Structure ................................................................             6

    OTS’s Supervision of First Bank of Idaho........................................................             8
         OTS Did Not Take Forceful and Timely Actions to Address Unsafe
            Concentrations in High-Risk Lending Areas…… .................................                        9
         OTS Actions Were Not Consistent With First Bank of Idaho’s Risk Profile                                11
         OTS Did Not Timely Identify First Bank of Idaho’s Inappropriate Use
             of Interest Reserves... ...................................................................        13
         OTS Internal Failed Bank Review Identified Areas Needing Improvement ...                               15
         OTS Implemented Prompt Corrective Action In Accordance with
            Requirements ................................................................................       17

    Recommendations ....................................................................................... 19

Appendices

    Appendix     1:      Objectives, Scope, and Methodology ......................................              21
    Appendix     2:      Background..........................................................................   24
    Appendix     3:      Glossary of Terms ................................................................     28
    Appendix     4:      Chronology of Significant Events ............................................          36
    Appendix     5:      OTS First Bank of Idaho Examinations and Enforcement Actions                           42
    Appendix     6:      Prior OIG Material Loss Review Recommendations……………… ..                                48
    Appendix     7:      Management Response .........................................................          52
    Appendix     8:      Major Contributors to This Report ...........................................          53
    Appendix     9:      Report Distribution ................................................................   54

Abbreviations

    ALLL                 allowance for loan and lease losses
    C&D                  cease and desist
    FDIC                 Federal Deposit Insurance Corporation
    FHLB                 Federal Home Loan Bank


                         Material Loss Review of First Bank of Idaho (OIG-10-036)                            Page i
FRB    Federal Reserve Board
MRBA   matters requiring board attention
OTS    Office of Thrift Supervision
PCA    prompt corrective action
ROE    report of examination




       Material Loss Review of First Bank of Idaho (OIG-10-036)   Page ii
                                                                                         Audit
OIG
The Department of the Treasury
                                                                                         Report
Office of Inspector General



                        February 16, 2010

                        John E. Bowman, Acting Director
                        Office of Thrift Supervision

                        This report presents the results of our review of the failure of First
                        Bank of Idaho, of Ketchum, Idaho, and the Office of Thrift
                        Supervision’s (OTS) supervision of the institution. OTS closed the
                        thrift and appointed the Federal Deposit Insurance Corporation
                        (FDIC) as receiver on April 24, 2009. Section 38(k) of the Federal
                        Deposit Insurance Act mandated this review because of the
                        magnitude of the thrift’s estimated loss to the Deposit Insurance
                        Fund. 1 As of December 31, 2009, FDIC estimated that the loss
                        would be $174.6 million. FDIC also estimated that the thrift’s
                        failure resulted in a loss of $4.7 million to the Transaction Account
                        Guarantee Program.

                        The objectives of our review were to determine the causes of the
                        thrift’s failure; assess OTS’s supervision of the thrift, including
                        implementation of the prompt corrective action (PCA) provisions of
                        section 38; and make recommendations for preventing any such
                        loss in the future. To accomplish these objectives, we reviewed the
                        supervisory files and interviewed key officials involved in the
                        regulatory enforcement matters. We conducted fieldwork at OTS’s
                        headquarters in Washington, D.C.; OTS’s regional offices in Daly
                        City, California, and Seattle, Washington; and FDIC’s office in
                        Irvine, California. We also interviewed personnel at FDIC’s Division
                        of Supervision and Consumer Protection. Appendix 1 contains a
                        more detailed description of our objectives, scope, and
                        methodology.

                        This report contains several other appendices. Appendix 2 contains
                        background information on First Bank of Idaho and OTS’s thrift
                        supervision processes. Appendix 3 is a glossary of terms used in
                        this report (when first used in the text, the terms are underlined

1
  Section 38(k) defines a loss as material if it exceeds the greater of $25 million or 2 percent of the
institution’s total assets.


                        Material Loss Review of First Bank of Idaho (OIG-10-036)                      Page 1
               and hyperlinked to the glossary). Appendix 4 is a chronology of
               significant events related to First Bank of Idaho and OTS’s
               supervision of the thrift. Appendix 5 contains significant
               examination results and information on enforcement actions.
               Appendix 6 contains Treasury Office of Inspector General (OIG)
               recommendations from material loss reviews of failed
               OTS-regulated institutions completed since April 2008.

Results in Brief
               First Bank of Idaho failed primarily because of (1) significant loan
               delinquencies and losses incurred on construction and land loans
               and (2) inadequate capital relative to the risk levels of its loans.
               These loans were concentrated in resort areas that experienced
               severe declines when the real estate market deteriorated. Starting
               in 2008, First Bank of Idaho became reliant on brokered deposits
               and federal borrowings due to its unstable funding structure that
               included an unusually high amount of uninsured deposits. As the
               condition of the thrift deteriorated, First Bank of Idaho faced
               restrictions on its acceptance of brokered deposits and its access
               to federal borrowings became limited. The losses in high-risk loans
               combined with the thrift’s inability to obtain reliable funding
               created a liquidity crisis that prompted OTS to close the thrift.

               OTS’s supervision of First Bank of Idaho did not prevent a material
               loss to the Deposit Insurance Fund. OTS identified credit
               concentrations early on at the thrift but did not adequately address
               the risk associated with them. OTS took enforcement action
               against the thrift only after the concentrations became problematic.
               In addition, OTS reached supervisory judgments on two matters in
               2006 that were inconsistent with First Bank of Idaho’s rising risk
               profile. As to the first matter, OTS did not take exception to the
               thrift lowering its target risk-based capital ratio from 11 percent to
               10.5 percent. As to the second matter, OTS upgraded the thrift’s
               CAMELS composite rating to 1. OTS also did not identify the
               thrift’s improper use of interest reserves prior to its March 2009
               examination. We referred the thrift’s inappropriate use of interest
               reserves to the Treasury Inspector General’s Office of
               Investigations.




               Material Loss Review of First Bank of Idaho (OIG-10-036)        Page 2
              In accordance with its policy, OTS conducted an internal failed
              bank review of First Bank of Idaho and determined that the thrift’s
              failure was primarily caused by a severe liquidity crisis that
              culminated in April 2009. In its review, OTS concluded that the
              root cause of the First Bank of Idaho’s failure was a severe decline
              in asset quality that began in 2008. The decline was related to the
              thrift’s high concentration of higher-risk loan types—primarily land
              and construction loans in its relatively isolated market areas. The
              review identified four areas of weaknesses in OTS’s supervision of
              First Bank of Idaho related to the thrift’s concentrations in higher-
              risk loan areas. Our material loss review affirmed OTS’s internal
              findings and the need for corrective action.

              We are recommending that OTS ensures (1) action is taken on its
              internal failed bank review of First Bank of Idaho and (2) examiners
              sufficiently consider a thrift’s risk profile when deciding whether to
              allow the thrift to lower its internal capital targets and when
              determining the thrift’s CAMELS ratings.

              In a written response, OTS concurred with our recommendations
              and plans to implement them by the end of the second quarter of
              2010. OTS also stated that it has taken action pursuant to its
              internal failed bank review of First Bank of Idaho. This action
              included issuing on October 30, 2009, CEO Letter No. 325,
              “Guidance on Prudent Commercial Real Estate Loan Workouts” to
              remind examiners to appropriately review commercial real estate
              loans, including loans supported by interest reserves. We consider
              OTS’s planned actions and timeframe to be responsive to our
              recommendations. OTS’s response is provided as Appendix 7.


Causes of First Bank of Idaho’s Failure
              First Bank of Idaho failed because of significant loan delinquencies and
              losses incurred on construction and land loans. The thrift maintained a
              large concentration of construction and land loans, which grew
              throughout the life of the thrift. These loans were concentrated in
              resort areas in Idaho and Wyoming, which experienced severe real
              estate market declines. The thrift also did not maintain adequate
              capital relative to the risk level of its loans. Losses resulting from high-
              risk loans, combined with the thrift’s inability to obtain reliable funding



              Material Loss Review of First Bank of Idaho (OIG-10-036)           Page 3
sources, created a liquidity crisis in 2009 that led OTS to close the
thrift.

High Concentrations in Construction and Land Loans

OTS defines a concentration as a group of similar types of assets or
liabilities that, when aggregated, exceeds 25 percent of a thrift’s
risk-based capital (core capital plus allowance for loan and lease losses
(ALLL). Concentrations pose risk to an institution because negative
events affecting overly concentrated groups of assets can have a
highly detrimental impact on the institution. First Bank of Idaho
maintained high concentrations in construction and land loans in its
portfolio.

First Bank of Idaho grew primarily by increasing its construction and
land loans. As of June 30, 2005, land loans were 227 percent of
risk-based capital and construction loans were 73 percent of
risk-based capital. The thrift continued to focus on these types of
loans and by March 31, 2009, land loans were approximately 255
percent of risk-based capital and construction loans were 135 percent
of risk-based capital.

Starting in late 2007, construction and land loans were First Bank
of Idaho’s largest group of nonperforming loans. From December
2007 through December 2008, nonperforming construction and
land loans increased from $2.2 million to $18.2 million. Figure 1
illustrates the impact of construction and land loans on the makeup
of the thrift’s nonperforming loans from March 2007 through
March 2009. While First Bank of Idaho reported net income of
$5.3 million for 2007, it incurred a net loss of $4.2 million for
2008. The net loss in 2008 resulted from the thrift’s need to
allocate $10.4 million to its ALLL. First Bank of Idaho reported
income of $329,000 for the quarter ended March 2009, but OTS
noted that the thrift’s earnings were insufficient to support
operations and to maintain adequate capital. OTS also noted that
further asset quality deterioration would require the thrift to
increase allowances throughout 2009 and that the thrift projected
a loss for the full year.




Material Loss Review of First Bank of Idaho (OIG-10-036)        Page 4
Figure 1. First Bank of Idaho’s Nonperforming Loans, by Quarter and Type (in
thousands)

   $25,000 

   $20,000 

   $15,000 

   $10,000 

    $5,000 

       $‐




                         Construction        Land          Other

Source: Analysis of OTS’s 5-Quarter Uniform Thrift Performance Report for First Bank of
Idaho.


Decline in Real Estate Values

First Bank of Idaho’s loans were concentrated in the upscale resort
areas of Wood River Valley and Teton Valley in Idaho, and Jackson
Hole, Wyoming. In late 2007, the real estate markets in these areas
began to undergo a severe downturn along with the deterioration in
the housing market across the country. The thrift’s markets
experienced a combination of overbuilding, significant sales and value
declines, and a build-up of multiyear inventories of unsold land lots.
Furthermore, the thrift’s lending was concentrated in resort areas with
a significant amount of discretionary housing, such as vacation homes
and second homes. As the economy declined along with the housing
market, personal wealth also declined. As a result, less discretionary
income was available to purchase or pay debt service on vacation and
second homes.

Inadequate Capital Levels

Although First Bank of Idaho was considered well-capitalized under
PCA requirements until March 9, 2009, when the thrift fell to
adequately-capitalized, its capital levels were nevertheless inadequate



Material Loss Review of First Bank of Idaho (OIG-10-036)                         Page 5
                       because of its significant exposure to loans with higher levels of credit
                       risk. According to section 120 of the OTS Examination Handbook,
                       thrifts that engage in higher-risk activities require more capital,
                       especially if the activities are conducted at significant concentration
                       levels. Until January 2006, when OTS approved First Bank of Idaho’s
                       request to lower its risk-based capital target to 10.5 percent, the thrift
                       maintained risk-based capital at 11 percent, based on an agreement
                       with OTS. However, First Bank of Idaho’s risk-based capital levels,
                       even at the targeted 11 percent level, was consistently below the
                       levels of its peer median, despite its significantly higher-risk assets.
                       Figure 2 shows First Bank of Idaho’s total risk-based capital compared
                       to its peer median level from December 2004 to December 2008.
                       Further, the thrift’s assets in the 100 percent risk-weighted asset
                       category were always well above the peer median. 2

                       Figure 2 Risk-Based Capital Levels of First Bank of Idaho and Its Peers
                                                          18%

                                                          16%    15.17%      15.09%     15.25% 14.92%
                                                                                                           14.77%
                          Risk-Based Capital Percentage




                                                          14%

                                                          12%
                                                                  11.86%     11.64%
                                                          10%                           11.00%
                                                                                                 10.84%
                                                          8%                                                 9.55%

                                                          6%
                                                                                                  First Bank of
                                                          4%                                      Idaho
                                                                                                  Peer Median
                                                          2%

                                                          0%
                                                                Dec-04     Dec-05     Dec-06   Dec-07     Dec-08

                       Source: Analysis of OTS’s 5-Quarter Uniform Thrift Performance Report for First Bank of
                       Idaho.

                       Unstable Funding Structure

                       First Bank of Idaho’s funding structure was historically dominated by
                       core deposits. The thrift held brokered deposits to supplement its core

2
  An adverse variance from a peer median is not a basis by itself for regulatory action, but does point to
a possible elevated risk. We are presenting this information to provide additional perspective on First
Bank of Idaho’s capital level over time, especially in light of the high-risk nature of its assets.


                       Material Loss Review of First Bank of Idaho (OIG-10-036)                                      Page 6
                       deposits but they were not a significant source of funding for the
                       thrift. However, throughout its life, First Bank of Idaho reported
                       unusually high levels of uninsured deposits. 3 By the end of the third
                       quarter of 2007, 55 percent of the thrift’s total deposits were
                       uninsured deposits.

                       During 2008, however, First Bank of Idaho experienced a shift in its
                       funding structure. First Bank of Idaho management attempted to
                       reduce the cost of funds by reducing the interest rates it paid on
                       deposits. As a result, deposits began flowing out of the thrift, with
                       particularly large reductions in money market deposit accounts and
                       uninsured account balances. First Bank of Idaho became more reliant
                       on brokered deposits and borrowing from the Federal Reserve Bank
                       (FRB) of San Francisco and the Federal Home Loan Bank (FHLB) of
                       Seattle to fund its operations. As the thrift’s total assets increased,
                       core deposits declined and brokered deposits and federal borrowings
                       increased. Figure 3 details First Bank of Idaho’s increasing reliance on
                       brokered deposits.

                       Figure 3. Brokered Deposit Growth, by Quarter (as a percentage of risk-based
                       capital)
                                                             300%
                          Percentage of Risk‐Based Capital




                                                             250%

                                                             200%

                                                             150%

                                                             100%

                                                             50%
                                                                                                        Brokered 
                                                              0%                                        Deposits 




                       Source: Analysis of OTS’s 5-Quarter Uniform Thrift Performance Report for First Bank of
                       Idaho.


3
   FDIC insurance covers various types of deposits including checking and savings accounts, money
market deposit accounts and certificates of deposit that are received at FDIC-insured institution. Before
October 3, 2008, deposits at FDIC-insured institutions were insured up to $100,000 per depositor.
Currently, the insured limit for deposits is $250,000 per depositor. Deposits above these FDIC insurance
limits are considered uninsured deposits.


                       Material Loss Review of First Bank of Idaho (OIG-10-036)                         Page 7
                      On March 9, 2009, after filing an amended December 31, 2008, thrift
                      financial report, First Bank of Idaho’s PCA status fell to adequately
                      capitalized. OTS issued a troubled condition letter that restricted the
                      thrift from accepting, renewing, or rolling over any brokered deposits
                      without prior written approval from FDIC. On March 25, 2009,
                      following OTS’s downgrade of the thrift’s CAMELS composite rating
                      to 4 on March 9, 2009, FRB reduced its line of credit to First Bank of
                      Idaho and changed other terms for its borrowing from FRB. First Bank
                      of Idaho was also unable to obtain an increase in its line of credit from
                      FHLB because FHLB was in the process of reviewing the collateral the
                      thrift provided to obtain the increase.

                      First Bank of Idaho’s high concentrations in construction and land
                      loans that became nonperforming led to the restrictions on brokered
                      deposits and federal borrowings, and combined with high levels of
                      depositor withdrawals, created a liquidity crisis for First Bank of Idaho.
                      The thrift was unable to fund its day-to-day operations and meet
                      depositor demands. First Bank of Idaho was closed on April 24, 2009.
                       
OTS’s Supervision of First Bank of Idaho
                      OTS’s supervision of First Bank of Idaho did not prevent a material
                      loss to the Deposit Insurance Fund. OTS identified credit
                      concentrations early on at the thrift but did not adequately address the
                      risk associated with them. OTS prescribed corrective action to address
                      First Bank of Idaho’s high credit concentrations in 2008, only after
                      those concentrations became problematic. In addition, OTS reached
                      supervisory judgments on two matters in 2006 that were inconsistent
                      with First Bank of Idaho’s rising risk profile. As to the first matter,
                      OTS did not take exception to the thrift lowering its target risk-based
                      capital ratio from 11 percent to 10.5 percent. As to the second
                      matter, OTS upgraded the thrift’s CAMELS composite rating to 1.

                      Table 1 summarizes the results of OTS’s safety and soundness and
                      limited examinations from 2005 until its closure. 4 Appendix 5 provides
                      details of matters requiring board attention (MRBA), corrective actions,
                      and other issues noted during the examinations.

4
 OTS conducted its examinations and performed off-site monitoring of First Bank of Idaho in
accordance with the timeframes prescribed in the OTS Examination Handbook.


                      Material Loss Review of First Bank of Idaho (OIG-10-036)                Page 8
               Table 1. Summary of OTS’s Examinations and Enforcement Actions for First Bank of Idaho
                                                              Examination Results
                                                                        Number of
               Date started/ Assets (in                     Number of corrective Enforcement
               completed     (millions)   CAMELS rating     MRBAs         actions     actions
               8/29/2005
                                       $337              2/222111                    0   0
               9/19/2005                                                                     None
               8/7/2006
                                       $351              1/221111                    0   4
               8/29/2006                                                                     None
               3/3/2008
                                       $441              2/222111                    3   4
               5/15/2008                                                                     None
                                                                                             OTS and First
               9/29/2008                                                                     Bank of Idaho
               10/16/2008                                                                    enter into a
                                       $477              3/332321                    -   -
               (Limited                                                                      memorandum of
               exam)                                                                         understanding
                                                                                             on 12/23/2008.
               2/20/2009                                                                     OTS issues a
               3/9/2009                                                                      troubled
                                       $492              4/443441                    -   -
               (Limited                                                                      condition letter
               exam)                                                                         on 3/9/2009.
               3/23/2009
               (Not                    $492                  N/A                     -   -   None
               completed)*
                                                                                             OTS issues a
                                                                                             cease and desist
               4/9/2009
                                                                                             order on
               4/9/2009
                                         NA              5/443451                    -   -   4/6/2009. The
               (Limited
                                                                                             thrift’s board
               Exam)
                                                                                             consented to the
                                                                                             order.
* First Bank of Idaho was put in receivership before the examination was finished.


                              OTS Did Not Take Forceful and Timely Actions to Address Unsafe
                              Concentrations in High-Risk Lending Areas

                              In their reports of examination (ROE), OTS examiners identified First
                              Bank of Idaho’s increasing concentrations in higher-risk lending.
                              However, they did not take timely action to limit the concentration
                              growth. As stated earlier, OTS defines a concentration as a group of
                              similar assets or liabilities that, when aggregated, exceeds 25 percent
                              of a thrift’s risk-based capital (core capital plus ALLL). In June 2005,
                              First Bank of Idaho’s construction and land loans represented a
                              combined concentration of 301 percent of risk-based capital. First
                              Bank of Idaho continued making these higher-risk loans; by March


                              Material Loss Review of First Bank of Idaho (OIG-10-036)                 Page 9
                      2009, construction and land loans represented 390 percent of risk-
                      based capital.

                      In the 2005 and 2006 ROEs, OTS examiners identified First Bank of
                      Idaho’s credit concentrations and acknowledged the increased risk
                      associated with them. However, OTS did not take strong supervisory
                      action to address the concentrations. OTS’s assessments of the
                      concentrations in the ROEs were typically informational in nature; until
                      the ROE for the March 2008 examination, none of the ROEs included
                      corrective actions, MRBAs, or limitations to address the risk
                      associated with the concentrations. Instead, OTS relied on the ability
                      of the thrift’s management to identify and monitor these risks.

                      OTS’s ROEs stated that First Bank of Idaho had policies, procedures,
                      and limits on each portfolio to minimize the risks of the concentrations
                      on the thrift’s operations. However, our review of the policies and
                      procedures found that the thrift restricted concentration growth to a
                      percentage of total loans but did not restrict growth to a percentage
                      of capital, which is how OTS measures concentrations. Because
                      capital serves as a buffer against unexpected losses, measuring
                      concentrations as a percentage of capital provides a better indication
                      of their potential impact on an institution. Furthermore, based on our
                      review of the thrift’s records, we did not find underlying analyses or
                      other documentation to support First Bank of Idaho’s determination of
                      its concentration limits for the different loan types. When we asked
                      OTS examiners why they did not elevate their concern about First
                      Bank of Idaho’s risky lending strategy and high credit concentrations,
                      they cited the thrift’s lack of loss history and the capabilities of its
                      management.

                      The March 2008 ROE included OTS’s first corrective action to address
                      First Bank of Idaho’s concentration levels. 5 OTS stated that
                      management needed to enhance its concentration risk reporting and
                      aggressively monitor its land loans, especially in the Ketchum and
                      Teton regions of Idaho and Wyoming. However, OTS’s corrective
                      action did not require the thrift to lower concentration levels, only to
                      improve its monitoring and reporting of its concentrations. OTS did
                      recommend that the thrift set limits for land loans for the Wood River

5
 Corrective actions are included in ROEs to address deficiencies and violations found during the
examination. They are communicated to the institution with the expectation that the problems they
address will be corrected by the next examination.


                      Material Loss Review of First Bank of Idaho (OIG-10-036)                Page 10
                     and Teton Valley markets of Idaho and Wyoming but did not elevate
                     the recommendation to a corrective action or a MRBA. At this time,
                     First Bank of Idaho’s construction and land loans were 374 percent of
                     risk-based capital.

                     First Bank of Idaho also did not perform stress testing or sensitivity
                     analysis on its construction and land portfolios to provide a more
                     accurate assessment of its risk exposure to high credit and geographic
                     concentrations. OTS guidance on commercial real estate (CRE)
                     concentration risks, which also applies to construction and land
                     development loans, states that an institution with CRE concentration
                     risk should perform portfolio-level stress tests or sensitivity analysis to
                     quantify the impact of changing economic conditions on asset quality,
                     earnings, and capital. 6 In the March 2008 ROE, OTS encouraged the
                     thrift’s management to consider stress testing but did not require that
                     it be done.

                     Regardless of First Bank of Idaho’s prior loss history, we believe that
                     greater supervisory action prior to 2008 was warranted, to address
                     the thrift’s concentrations in higher-risk lending, including requiring
                     First Bank of Idaho to lower its concentrations in construction and land
                     loans by either restricting further lending in those areas or by requiring
                     the thrift to increase its capital levels. OTS should also have required
                     that First Bank of Idaho monitor, report, and restrict concentration
                     growth relative to its risk-based capital.

                     During our interviews, various OTS examination staff acknowledged
                     that earlier supervisory action should have been taken to address the
                     thrift’s concentrations in construction and land loans.

                     OTS Actions Were Not Consistent With First Bank of Idaho’s Risk
                     Profile

                     OTS Allowed First Bank of Idaho to Lower Its Internal Capital Targets

                     In January 2006, OTS allowed First Bank of Idaho to lower its
                     internal capital target to 10.5 percent of risk-based capital, which
                     was inconsistent with the thrift’s risk profile and with OTS’s
                     findings in the prior examination. Based on an earlier voluntary

6
  OTS, Concentrations in Commercial Real Estate (CRE) Lending, Sound Risk Management Practices
(Dec. 14, 2006).


                     Material Loss Review of First Bank of Idaho (OIG-10-036)              Page 11
agreement with OTS, First Bank of Idaho had an internal capital
target of 11 percent for risked-based capital and 7 percent for Tier
1 capital. As noted earlier, the thrift consistently met the internal
capital targets. However, section 120 of the OTS Examination
Handbook states that a thrift’s level of capital is adequate when it
meets regulatory requirements and is commensurate with the
thrift’s risk profile. In addition, the handbook states that the
various capital requirements assume that a thrift primarily engages
in traditional, relatively low-risk activities and that higher-risk
activities require more capital, especially if the activities are
conducted at significant concentration levels.

In August 2005, First Bank of Idaho submitted to OTS a request to
lower its 11 percent risk-based capital target to 10.5 percent, and on
January 19, 2006, OTS approved the request. However, this approval
was inconsistent with the guidance in the OTS Examination Handbook
and with OTS’s findings in the 2005 ROE, which noted the thrift’s
high-risk lending strategy, high levels of credit concentrations, and
inability to maintain its 11 percent capital target during the review
year. Given First Bank of Idaho’s high-risk lending strategy, its
geographic concentrations, and lower capital levels compared with the
median levels of its peers, we believe that OTS should not have
approved reduction of the thrift’s internal risk-based capital target.

When we asked OTS examiners why they approved the thrift’s
request, they responded that they were comfortable with First Bank of
Idaho’s management at the time. Some examiners added that market
conditions at the time of the approval were good and that the new
target was still above the PCA well-capitalized requirement of 10
percent. However, starting in 2008, the thrift’s capital base proved
insufficient to offset the write downs caused by the deterioration of
the quality of its construction and land loans.

OTS Upgraded First Bank of Idaho’s CAMELS Composite Rating

In its 2006 ROE, OTS upgraded First Bank of Idaho’s CAMELS
composite rating to 1, which was inconsistent with the thrift’s rising
risk profile and its capital levels that were below the median levels of
its peers. As discussed earlier, First Bank of Idaho held high
concentrations of credit in high-risk loan types and maintained below-
average capital levels throughout its history. OTS conducted an


Material Loss Review of First Bank of Idaho (OIG-10-036)       Page 12
examination in August 2005 that resulted in a CAMELS composite 2
rating for the thrift. The 2005 ROE made note of the thrift’s credit
concentrations and high-risk lending strategy. OTS conducted an
examination in August 2006 that came to similar conclusions. The
ROE for that examination stated that First Bank of Idaho’s
concentrations in high-risk loan types had grown and that capital
levels had remained relatively the same. It further stated that the
thrift’s credit risk profile was higher because of growing geographic
and borrower concentrations in CRE, construction, land, and
commercial business loans.

First Bank of Idaho’s risk profile during the period covered by the
August 2006 examination was increasing, and all of the CAMELS
component ratings for the thrift in the 2006 ROE remained the same
as the 2005 ratings, except for the management rating, which OTS
upgraded from 2 to 1. OTS’s examination staff said that raising the
CAMELS management component rating caused the thrift’s CAMELS
composite rating to rise from 2 to 1. However, given First Bank of
Idaho’s high credit concentrations, its high-risk lending strategy, and
its lower capital levels, we find it hard to understand the logic behind
raising the component rating in this case.

OTS Did Not Timely Identify First Bank of Idaho’s Inappropriate Use of
Interest Reserves

During the March 2009 examination of First Bank of Idaho, OTS
discovered that the thrift was restructuring problem loans by
extending maturity dates and granting separate lines of credit
providing interest reserves to service the debt until maturity. During
this review, OTS found that the thrift had made $39.1 million of
loans, all with similar attributes. They were nonperforming loans for
real estate projects that had been modified to extend their term for 3
years and had advances of interest reserves in the form of a draw-
down line of credit to carry the payments for the 3-year period.
According to OTS, First Bank of Idaho management acknowledged
that this use of thrift-provided interest reserves to carry nonperforming
loans was inappropriate restructuring and said that the thrift had
ceased the practice in mid-2008.




Material Loss Review of First Bank of Idaho (OIG-10-036)        Page 13
                       OTS reviewed seven of these loans, totaling $20.8 million, to
                       determine if any of them should be placed in nonaccrual status, 7 what
                       the proper classification should be, and whether the loans were
                       impaired. 8 OTS found that six of the seven sampled loans required
                       downgrades: two should have been placed in nonaccrual status, one
                       was impaired, and three needed risk rating downgrades. 9 These six
                       loans totaled nearly $16 million.

                       Although we could not determine from our review of OTS’s
                       workpapers for its 2008 and 2009 examinations how long First Bank
                       of Idaho had been restructuring problem loans by extending maturity
                       dates and providing interest reserves to service them, OTS’s internal
                       failed bank report stated that the thrift began these practices in mid-
                       2007 and that it was evident that loan delinquency was being
                       masked. We interviewed a former First Bank of Idaho senior employee
                       who said that the thrift commonly used interest reserves to carry
                       construction and land development loans. These practices understated
                       asset quality deterioration and overstated interest income and capital.
                       The OTS Examination Handbook states that for development and
                       construction projects, an institution’s policy should establish standards
                       for the acceptability of and limits on the use of interest reserves. 10
                       Our review of First Bank of Idaho’s written policies found that its
                       construction lending policy included the methodology for calculating
                       interest reserves but did not evaluate the appropriateness of extending
                       lines of credit as interest reserves or set limits on refreshing existing
                       interest reserve accounts.



7
  According to section 260 of the OTS Examination Handbook, Asset Quality, institutions should report
loans as nonaccrual when payments are contractually past due 30 days or more and full payment of
principal and interest is not expected.
8
  According to the Statement of Financial Accounting Standards No. 114, Accounting by Creditors for
Impairment of a Loan, a loan is impaired when, based on current information and events, it is probable
that a creditor will be unable to collect all amounts due according to the contractual terms of the loan
agreement.
9
  According to section 260 of the OTS Examination Handbook, Asset Quality, loans are to be assigned
to one of the following three categories based on risk: pass, special mention, and classified. Pass
indicates that the loan is not classified and considered well protected by the current worth and paying
capacity of the obligor. Special mention indicates that the loan has potential weakness that deserves
management’s close attention. Classified is an adverse rating given when a loan is not well-protected by
the current worth and paying capacity of the obligor and has well-defined weaknesses that make
collection questionable or improbable.
10
   OTS Examination Handbook, section 213, Asset Quality.


                       Material Loss Review of First Bank of Idaho (OIG-10-036)                 Page 14
The March 2008 ROE and the related workpapers did not address the
thrift’s use of thrift-provided interest reserves to carry acquisition,
development, and construction loans. When we asked why they did
not address this issue during the examination, OTS’s examination staff
said that they would have looked for these practices but that they did
not find them in the loans in their review sample. However, with First
Bank of Idaho’s construction and land loan concentrations at 123
percent and 251 percent of risked-based capital, respectively, as of
December 31, 2007, OTS should have been more alert to the risk
factors associated with large concentrations in these lending areas. At
that time, OTS should have reviewed First Bank of Idaho’s policies
related to use of interest reserves and determined whether the thrift
was appropriately granting interest-reserve lines of credit associated
with its construction and land development loans.

We referred the inappropriate use of interest reserves to carry
nonperforming loans to the Treasury Inspector General’s Office of
Investigation.

OTS Internal Failed Bank Review Identified Areas Needing
Improvement

In accordance with its policy, OTS staff completed an internal review
of First Bank of Idaho’s failure. The review identified the causes of the
thrift’s failure and assessed OTS’s supervision in its August 2, 2009,
internal failed bank review report. OTS determined that the thrift’s
failure was primarily caused by a severe liquidity crisis that culminated
in April 2009. The report stated that the root cause of the failure was
the severe decline in asset quality at the thrift that began in 2008,
which was related to the thrift’s high concentration of higher-risk loan
types—primarily land and construction loans—in its relatively isolated
market areas.

The review identified the following four weaknesses in OTS’s
supervision of First Bank of Idaho:

•   Before 2008, OTS did not limit the thrift’s concentrations or require
    sufficient capital to support the risk resulting from the
    concentrations.




Material Loss Review of First Bank of Idaho (OIG-10-036)       Page 15
                       •   Although the thrift established internal concentration limits in
                           2004, the limits were based on a percentage of assets instead of
                           capital. OTS did not address this issue.

                       •   Although OTS ROEs consistently identified First Bank of Idaho’s
                           increasing concentrations in higher-risk loan areas, OTS took no
                           corrective actions and imposed no restrictions to address these
                           concentrations until its March 2008 examination of the thrift.

                       •   In light of the increase in the thrift’s level of concentration risk to
                           very significant levels, OTS could have pursued regulatory action
                           but did not do so.

                       The internal review also made three recommendations:

                       1. Examiners should obtain the results of the most recent FHLB and
                          FRB onsite loan file reviews from bank management and assess
                          and comment on the steps taken by management to address
                          documentation exceptions provided to them.

                           This recommendation was made to remind examiners to review
                           recent FHLB and FRB loan review reports to determine if the thrift’s
                           loan files are in good order and that noted deficiencies are
                           addressed. FHLB and FRB review loan files used as collateral for
                           credit extensions to thrifts. FHLB found that First Bank of Idaho’s
                           loan files had a high level of documentation deficiencies which
                           slowed down the qualification process and reduced the amount of
                           available collateral during a time when the thrift needed a great
                           deal of alternative funding in a short amount of time.

                       2. Because high levels of uninsured deposits may contribute to the
                          volatility in an institution’s funding structure, greater supervisory
                          and examination attention should be devoted to reviewing the
                          characteristics of high levels of uninsured deposits. OTS should
                          revise preliminary examination response kit documents to request
                          details about a thrift’s high level of uninsured deposits. 11


11
   A preliminary request report kit, also known as a PERK, is a package OTS sends to financial
institutions before the start of an onsite examination. It includes, among other things, forms and
instructions to the institution for gathering various information and documents and asks that the
institution have basic information ready upon the arrival of the examination staff.


                       Material Loss Review of First Bank of Idaho (OIG-10-036)                      Page 16
3. Examiners should be reminded to closely review loans supported by
   interest reserves. They should give particular attention to practices
   where depleted interest reserves are replenished by providing
   additional loan funds or additional loans.

OTS concluded that concentration deficiencies noted during its review
of First Bank of Idaho’s failure were substantially the same issues
noted in its other failed bank reviews conducted in 2009 and in
Treasury Office of Inspector General audit reports of failed Treasury-
regulated financial institutions. The report stated that OTS adequately
addressed the concentration issues with its July 9, 2009, release of
CEO Letter No. 311, Risk Management: Asset and Liability
Concentrations.

Based on our review of the examination records and reports and
interviews with OTS staff, we affirm OTS’s internal findings and the
need for corrective action. In addition, we agree that CEO Letter No.
311 re-emphasizes important risk management practices with respect
to concentration issues. However, we believe it is too early to tell if
the CEO letter adequately addressed the concentration issues.

OTS Implemented Prompt Corrective Action In Accordance With
Requirements

The purpose of PCA is to resolve the problems of insured depository
institutions at the least possible long-term loss to the deposit
insurance fund. According to PCA requirements, federal banking
agencies are to take certain actions when an institution’s capital drops
to certain levels. Under PCA, regulators also have flexibility to
discipline institutions based on criteria other than capital levels to help
reduce deposit insurance losses caused by unsafe and unsound
practices.

We concluded that OTS used its authority under PCA in accordance
with PCA requirements. First Bank of Idaho’s capital levels fell from
well-capitalized to adequately-capitalized on March 9, 2009, after the
thrift filed an amended thrift financial report for December 31, 2008.
The original report used an estimated loan loss because the thrift had
not received all of the final appraisals by the report’s due date. First
Bank of Idaho used estimates to evaluate its loan losses and for
increasing ALLL for the original, unamended report. With that report,


Material Loss Review of First Bank of Idaho (OIG-10-036)         Page 17
First Bank of Idaho maintained its well-capitalized status. The thrift’s
external accountants determined that the thrift had to recognize
additional losses and increase the ALLL before they would certify its
financial statements. First Bank of Idaho’s amended thrift financial
report filed on March 9, 2009, recognized the additional losses and
lowered the thrift to adequately capitalized status. OTS notified First
Bank of Idaho of its lower capital status and that it was considered to
be in troubled condition through a troubled condition letter issued that
same day.

The troubled condition letter also informed First Bank of Idaho of the
restrictions associated with its capital level decline and troubled
condition status, which included restrictions on growth, severance
pay, dividends, and brokered deposits. In addition, it required the thrift
to notify OTS of any changes of directors or senior executive officers
and restricted the thrift from entering into, renewing, extending, or
revising any employment contracts related to compensation or
benefits of its directors or senior executive officers. Furthermore, OTS
downgraded First Bank of Idaho’s CAMELS composite rating to 4.

OTS began a full-scope, comprehensive examination of First Bank of
Idaho on March 23, 2009. At that time, staff from FDIC’s Division of
Resolutions and Receiverships went onsite at First Bank of Idaho to
begin planning for a possible resolution. OTS issued a cease and desist
order on April 6, 2009, and began closely monitoring the thrift’s
liquidity. The cease and desist order required that First Bank of Idaho
do the following:

1. Meet and maintain Tier 1 core and total risk-based capital ratio
   minimums of 8 percent and 12 percent by June 30, 2009.
2. Develop and submit a contingency plan acceptable to the OTS
   regional director to achieve a merger with or acquisition by another
   banking institution or banking institution holding company or
   voluntary dissolution if the bank is unable to meet the capital
   requirements or when requested to do so by the regional director.
3. Provide a business plan to address capital preservation and
   enhancement strategies commensurate with the risk profile of the
   bank that provides detailed strategies to achieve and sustain
   profitability, detailed strategies to stress test and adjust earnings
   forecasts based on operating results, economic conditions and
   credit quality of the loan portfolio, and detailed pro forma balance


Material Loss Review of First Bank of Idaho (OIG-10-036)        Page 18
   sheets and income statements for a 3-year period beginning with
   the quarter ending March 31, 2009.
4. Immediately cease originating construction, land acquisition, and
   land development loans.
5. Revise and submit the classification of assets policy to OTS for
   review and comment.
6. Develop and submit a written comprehensive liquidity plan for
   review and approval by OTS and provide liquidity reports as
   requested by OTS.

OTS received a liquidity and cash flow analysis from the thrift’s chief
financial officer on April 7, 2009, and the analysis showed that First
Bank of Idaho would not be able to meet its liquidity needs over the
next 15 days. OTS appropriately downgraded the thrift’s CAMELS
composite rating to 5 on April 9, 2009. OTS closed First Bank of
Idaho on April 24, 2009, 46 days after the thrift’s capital status fell
from well-capitalized to adequately capitalized.

Recommendations

Our material loss review of First Bank of Idaho is the eighth such
review we have performed of failed OTS-regulated financial
institutions during the current financial crisis. Appendix 6 lists the
prior completed material loss reviews of OTS-regulated financial
institutions and our associated recommendations. OTS
management agreed with the prior recommendations and has taken
or is taking corrective actions to address them.

As a result of our material loss review of First Bank of Idaho, we
recommend that the Director of OTS do the following:

1. Ensure that recommendations from OTS’s internal review of the
   First Bank of Idaho failure are implemented and that the
   conclusions from the review are taken into account going
   forward. The recommendations are (a) examiners should obtain
   the results of the most recent FHLB and FRB onsite loan file
   reviews from bank management and assess and comment on
   the steps taken by management to address documentation
   exceptions provided to them, (b) OTS should revise preliminary
   examination response kit documents to request details about a
   thrift’s high level of uninsured deposits, and (c) examiners


Material Loss Review of First Bank of Idaho (OIG-10-036)       Page 19
    should be reminded to closely review loans supported by
    interest reserves. In regards to the review of loans supported by
    interest reserves, OTS should ensure that examiners determine
    whether any extensions of the loan maturity date and use of
    interest reserves were appropriate.

2. Ensure that examination staff sufficiently considers a thrift’s
   risk profile when deciding whether to allow a thrift to lower its
   internal capital targets and when determining the thrift’s
   CAMELS ratings.

Management Response

OTS concurred with our recommendations and stated that the
recommended actions would be implemented by the end of the
second quarter of 2010. OTS also stated that it has taken action
pursuant to its internal failed bank review of First Bank of Idaho.
This action included issuing on October 30, 2009, CEO Letter No.
325, “Guidance on Prudent Commercial Real Estate Loan
Workouts” to remind examiners to appropriately review commercial
real estate loans, including loans supported by interest reserves.

OIG Comment

We consider OTS’s planned actions and timeframe to be responsive
to our recommendations.

                         * * * * *
We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may
contact me at (202) 927-0384 or J. Mathai, Audit Manager, at
(202) 927-0356. Major contributors to this report are listed in
appendix 8.




Jeffrey Dye
Audit Director




Material Loss Review of First Bank of Idaho (OIG-10-036)       Page 20
                        Appendix 1
                        Objectives, Scope, and Methodology




                        Our objectives were to determine the causes of First Bank of
                        Idaho’s failure and assess its supervision by the Office of Thrift
                        Supervision (OTS). We conducted this material loss review of First
                        Bank of Idaho in response to our mandate under section 38(k) of
                        the Federal Deposit Insurance Act. 12 This section provides that if a
                        deposit insurance fund incurs a material loss with respect to an
                        insured depository institution, the inspector general for the
                        appropriate federal banking agency is to prepare a report to the
                        agency that

                        •    ascertains why the institution’s problems resulted in a material
                             loss to the insurance fund;
                        •    reviews the agency’s supervision of the institution, including its
                             implementation of the prompt corrective action provisions of
                             section 38; and
                        •    makes recommendations for preventing any such loss in the
                             future.

                        Section 38(k) defines a loss as material if it exceeds the greater of
                        $25 million or 2 percent of the institution’s total assets. The law
                        also requires the inspector general to complete the report within
                        6 months after it becomes apparent that a material loss has been
                        incurred.

                        We initiated a material loss review of First Bank of Idaho when we
                        were notified by the Federal Deposit Insurance Corporation (FDIC)
                        Office of Inspector General on June 24, 2009, that FDIC had
                        recorded a loss estimate to the Deposit Insurance Fund of
                        $186.1million as a result of the thrift’s failure. As of December 31,
                        2009, the loss estimate was $174.6 million. FDIC also estimated
                        that the thrift’s failure resulted in a loss of $4.7 million to the
                        Transaction Account Guarantee Program.

                        To accomplish our review, we conducted fieldwork at OTS’s
                        headquarters in Washington, D.C.; its Western Region Office in
                        Daly City, California; its field office in Seattle, Washington; and at
                        FDIC’s office located in Irvine, California. We also interviewed
                        officials of FDIC’s Division of Supervision and Consumer



12
     12 U.S.C. § 1831o(k).


                        Material Loss Review of First Bank of Idaho (OIG-10-036)         Page 21
Appendix 1
Objectives, Scope, and Methodology




Protection. We conducted our fieldwork from June 2009 through
September 2009.

To assess the adequacy of OTS’s supervision of First Bank of
Idaho, we determined (1) when OTS first identified the thrift’s
safety and soundness problems, (2) the gravity of the problems,
and (3) the supervisory response OTS took to get the thrift to
correct the problems. We also assessed whether OTS (1) might
have discovered problems earlier; (2) identified and reported all the
problems; and (3) issued comprehensive, timely, and effective
enforcement actions that dealt with any unsafe or unsound
activities. Specifically, we performed the following work:

    •   We determined that the period covered by our audit would
        be from July 1, 2004, through the thrift’s failure on April 24,
        2009. This period included three full-scope safety and
        soundness examinations prior to OTS’s March 2009
        designation of First Bank of Idaho as a troubled institution
        and three limited-scope examinations during 2008 and 2009.

    •   We reviewed OTS’s supervisory files and records for First
        Bank of Idaho from 2004 through 2009. We analyzed
        examination reports, supporting workpapers, and related
        supervisory and enforcement correspondence. We performed
        these analyses to gain an understanding of the problems
        identified, the approach and methodology OTS used to
        assess the thrift’s condition, and the regulatory action used
        by OTS to compel thrift management to address deficient
        conditions. We did not conduct an independent or separate
        detailed review of the external auditor’s work or associated
        workpapers other than those incidentally available through
        the supervisory files.

    •   We interviewed and discussed various aspects of the
        supervision of the thrift with OTS officials and examiners to
        obtain their perspectives on the thrift’s condition and the
        scope of the examinations. We also interviewed FDIC
        officials who were responsible for monitoring First Bank of
        Idaho for federal deposit insurance purposes and a former
        thrift senior employee.




Material Loss Review of First Bank of Idaho (OIG-10-036)        Page 22
Appendix 1
Objectives, Scope, and Methodology




    •   We selectively reviewed First Bank of Idaho’s documents
        that had been taken by FDIC and inventoried by FDIC
        Division of Resolutions and Receivership personnel. We
        identified from FDIC’s inventory list those documents for our
        review that were most likely to shed light on the reasons for
        the thrift’s failure and OTS’s supervision of the institution.

    •   We assessed OTS’s actions based on its internal guidance
        and the requirements of the Federal Deposit Insurance Act,
        as amended by 12 U.S.C. § 1820(d).

    •   We reviewed OTS’s internal failed bank review report of First
        Bank of Idaho dated August 2, 2009, and interviewed the
        OTS review team to discuss their findings and conclusions.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Material Loss Review of First Bank of Idaho (OIG-10-036)        Page 23
Appendix 2
Background




First Bank of Idaho History

First Bank of Idaho was established as a state-chartered bank on
March 31, 1997, and opened its first branch in Ketchum, Idaho. In
March 2001, the thrift changed its charter to a stock savings bank
and its name to First Bank of Idaho, FSB. This change allowed the
thrift to operate in other states. First Bank of Idaho was a wholly
owned subsidiary of Sun Valley Bancorp and operated seven
banking locations surrounding the resort communities of Wood
River Valley, Idaho; Teton Valley, Idaho; and Jackson, Wyoming. In
the Teton Valley, Idaho, and Jackson, Wyoming, markets, the thrift
conducted business as First Bank of the Tetons. The thrift’s home
office was in Ketchum, Idaho.

First Bank of Idaho’s business model centered on commercial real
estate (CRE) loan transactions. This model created loan fees and
annual portfolio turnover that resulted in very strong profit levels
during strong real estate markets. However, the model did not
require borrowers to maintain a full banking relationship with the
thrift. As a result, the thrift used noncore funding for a portion of
the loan funding and primarily focused on asset growth. As
economic and real estate conditions changed, it became apparent
in the fourth quarter of 2008 that the thrift’s business model was
not performing well. Asset quality began to deteriorate in 2007. In
2008, the thrift’s nonperforming construction loans increased by
$3.2 million, its nonperforming CRE loans increased by $2.5
million, and its nonperforming land development loans increased by
$12.8 million. Total nonperforming loans increased 763 percent in
2008.

In December 2008, First Bank of Idaho’s holding company engaged
an investment-banking firm to help obtain financing or to assist in
the sale of the thrift. The investment banking firm marketed the
thrift to potential investors, which generated interest but no
definitive agreement. During this time, First Bank of Idaho was
facing a liquidity crisis. Therefore, to boost liquidity, the thrift
attempted to sell $4 million of participations and up to $20 million
of other assets. These sales did not materialize, and the thrift faced
substantial liquidity constraints. As of April 22, 2009, the thrift’s
total available liquidity was $22.6 million, including approximately
$12.6 million in cash and cash equivalents and additional


Material Loss Review of First Bank of Idaho (OIG-10-036)       Page 24
Appendix 2
Background




borrowing capacity of approximately $9.5 million with the Federal
Reserve Bank of San Francisco and Federal Home Loan Bank of
Seattle. The thrift was projected to exhaust this liquidity in 8
business days. On April 24, 2009, the Office of Thrift Supervision
(OTS) closed the thrift.

Appendix 4 contains a chronology of significant events in the
history of First Bank of Idaho.

Types of Examinations Conducted by OTS

OTS conducts various types of examinations, including safety and
soundness, compliance, and information technology.

OTS conducts full-scope examinations of insured thrifts once every
12 or 18 months. During a full-scope examination, examiners
conduct an onsite examination and rate all CAMELS components.
OTS then assigns the thrift a CAMELS composite rating based on
its assessment of the overall condition and level of supervisory
concern

OTS uses the 12-month cycle until the thrift’s management has
demonstrated its ability to operate the institution in a safe and
sound manner and has satisfied all conditions imposed at the time
of its charter approval. The 18-month examination interval applies
to insured thrifts that have total assets of $500 million or less that

    • received a CAMELS composite rating of 1 or 2 and a
      Compliance rating of 1 or 2 for their most recent
      examination;
    • received a CAMELS management component rating of 1 or 2
      for their most recent examination;
    • are well-capitalized;
    • are not currently subject to a formal enforcement proceeding
      or order by OTS or the Federal Deposit Insurance
      Corporation; and
    • have not undergone a change in control during the 12-month
      period since completion of the last full-scope examination.




Material Loss Review of First Bank of Idaho (OIG-10-036)        Page 25
Appendix 2
Background




Enforcement Actions Available to OTS

OTS performs various examinations of thrifts that result in the
issuance of reports of examinations (ROE) identifying areas of
concern. OTS uses informal and formal enforcement actions to
address violations of laws and regulations and to address unsafe
and unsound practices.

Informal Enforcement Actions

When a thrift’s overall condition is sound, but it is necessary to
obtain written commitments from a thrift’s board of directors or
management to ensure that it will correct identified problems and
weaknesses, OTS may use informal enforcement actions. OTS
commonly uses informal actions for problems in well- or
adequately-capitalized thrifts and thrifts with a composite rating of
1, 2, or 3.

Informal actions notify a thrift’s board and management that OTS
has identified problems that warrant attention. A record of informal
action is beneficial in case formal action is necessary later.

If a thrift violates or refuses to comply with an informal action,
OTS cannot enforce compliance in federal court or assess civil
money penalties for noncompliance. However, OTS may initiate
more severe enforcement action against a noncompliant thrift. The
effectiveness of informal action depends in part on the willingness
and ability of a thrift to correct deficiencies that OTS notes.

Informal enforcement actions include supervisory directives,
memoranda of understanding, and board resolutions.

Formal Enforcement Actions

If informal tools do not resolve a problem that has been identified,
OTS is to use formal enforcement tools.

Formal enforcement actions are enforceable under the Federal
Deposit Insurance Act. They are appropriate when a thrift has
significant problems, especially when there is a threat of harm to
the thrift, depositors, or the public. OTS is to use formal


Material Loss Review of First Bank of Idaho (OIG-10-036)       Page 26
Appendix 2
Background




enforcement actions when informal actions are considered
inadequate, ineffective, or otherwise unlikely to secure correction
of safety and soundness or compliance problems.

OTS can assess civil money penalties against thrifts and individuals
for noncompliance with a formal agreement or final orders. OTS
can also request a federal court to require the thrift to comply with
an order. Unlike informal actions, formal enforcement actions are
public.

Formal enforcement actions include cease and desist orders, civil
money penalties, and prompt corrective action directives.

OTS Enforcement Guidelines

Considerations for determining whether to use informal action or
formal action include:

•   the extent of actual or potential damage, harm, or loss to the
    thrift because of the action or inaction;

•   whether the thrift has repeated the illegal action or unsafe or
    unsound practice;

•   the likelihood that the conduct may occur again;

•   the thrift’s record for taking corrective action in the past;

•   the capability, cooperation, integrity, and commitment of the
    thrift’s management, board of directors, and ownership to
    correct identified problems;

•   the effect of the illegal, unsafe, or unsound conduct on other
    financial institutions, depositors, or the public;

•   the examination rating of the thrift;

•   whether the thrift’s condition is improving or deteriorating; and

•   the presence of unique circumstances.




Material Loss Review of First Bank of Idaho (OIG-10-036)            Page 27
                   Appendix 3
                   Glossary




Adversely classified asset         An asset rated as substandard, doubtful, or loss.
                                   Substandard assets are inadequately protected by the
                                   current worth and paying capacity of the obligor or of
                                   the collateral pledged, if any. A doubtful asset has all
                                   the weaknesses of a substandard asset with the
                                   added characteristic that the weaknesses make
                                   collection or liquidation in full questionable and
                                   improbable. A loss asset is considered uncollectible
                                   and of such little value that continuation as a bankable
                                   asset is not warranted.

Allowance for loan and             An estimate of uncollectible amounts that is used
lease losses                       to reduce the book value of loans and leases to the
                                   amount that is expected to be collected. It is
                                   established in recognition that some loans in the
                                   institution’s overall loan and lease portfolio will not be
                                   repaid.

Board resolution                   A document designed to address one or more specific
                                   concerns identified by the Office of Thrift Supervision
                                   (OTS) and adopted by a thrift’s board of directors.

Brokered deposit                   Any deposit that is obtained, directly or indirectly,
                                   from a deposit broker. The bank or thrift solicits
                                   deposits by offering rates of interest that are
                                   significantly higher than the rates offered by other
                                   insured depository institutions in its normal market
                                   area. Use of brokered deposits is limited to well-
                                   capitalized insured depository institutions and, with a
                                   waiver from the Federal Deposit Insurance Corporation
                                   (FDIC), to adequately capitalized institutions.
                                   Undercapitalized institutions are not permitted to
                                   accept brokered deposits. (See 12 U.S.C. § 1831(f)
                                   and 12 C.F.R. 337.6.)

CAMELS                             An acronym for performance rating components for
                                   financial institutions: capital adequacy, asset quality,
                                   management, earnings, liquidity, and sensitivity to
                                   market risk. Numerical values range from 1 to 5,
                                   with 1 being the best rating and 5 being the worst.




                   Material Loss Review of First Bank of Idaho (OIG-10-036)            Page 28
                    Appendix 3
                    Glossary




Capital restoration plan            A plan submitted to the appropriate federal banking
                                    agency by an undercapitalized insured depository
                                    institution. A capital restoration plan specifies the
                                    steps the insured depository institution is to take to
                                    become adequately capitalized, the levels of capital to
                                    be attained during each year in which the plan is in
                                    effect, how the institution is to comply with the
                                    restrictions or requirements then in effect, the types
                                    and levels of activities in which the institution is to
                                    engage, and any other information that the federal
                                    banking agency may require.

Cease and desist order              A type of formal enforcement action. A cease and
                                    desist order issued by OTS normally requires the thrift
                                    to correct a violation of a law or regulation, or an
                                    unsafe or unsound practice. OTS may issue a cease
                                    and desist order in response to violations of federal
                                    banking, securities, or other laws by thrifts or
                                    individuals or if it believes that an unsafe and unsound
                                    practice or violation is about to occur.

Commercial real estate loan         A loan for real property where the primary or
                                    significant source of repayment is from rental income
                                    associated with the property or the proceeds of the
                                    sale, refinancing, or permanent financing of the
                                    property. Commercial real estate loans include
                                    construction and real estate development loans, land
                                    development loans, and commercial property loans
                                    (such as for office buildings and shopping centers).

Compliance                          The part of a financial institution examination that
                                    includes an assessment of how well the institution
                                    manages compliance with consumer protection and
                                    public interest laws and regulations, including the
                                    Bank Secrecy Act.

Concentration                       As defined by OTS, a group of similar types of assets
                                    or liabilities that, when aggregated, exceed 25 percent
                                    of a thrift’s core capital plus allowance for loan and
                                    lease losses. Concentrations may include direct,




                    Material Loss Review of First Bank of Idaho (OIG-10-036)          Page 29
                     Appendix 3
                     Glossary




                                     indirect, and contingent obligations or large purchases
                                     of loans from a single counterparty.

Concentration risk                   Risk in a loan portfolio that arises when a
                                     disproportionate number of an institution’s loans are
                                     concentrated in one or a small number of financial
                                     sectors, geographical areas, or borrowers.

Core capital                         Tier 1 capital consisting primarily of stockholder’s
                                     equity.

Division of Resolutions              A division within the FDIC that is charged with
and Receiverships                    resolving failing and failed financial institutions,
                                     including ensuring that depositors have prompt access
                                     to their insured funds.


Federal Home Loan Bank               A system of 12 regional cooperative banks created by
System                               Congress from which member institutions borrow
                                     funds to finance housing, economic development,
                                     infrastructure, and jobs. The system provides liquidity
                                     to member institutions that hold mortgages in their
                                     portfolios and facilitates the financing of mortgages by
                                     making low-cost loans, called advances, to members.
                                     Advances with a wide variety of terms to maturity,
                                     from overnight to long-term, are available to members
                                     and are collateralized. Advances are designed to
                                     prevent any possible loss to Federal Home Loan
                                     Banks, which also have a super lien (a lien senior or
                                     superior to all current and future liens on a property or
                                     asset) when institutions fail. To protect their position,
                                     Federal Home Loan Banks have a claim on any of the
                                     additional eligible collateral in a failed institution. In
                                     addition, the FDIC has a regulation that reaffirms the
                                     priority of Federal Home Loan Banks, which can
                                     demand prepayment of advances when institutions
                                     fail.

Field visit                          A visit conducted to review specific areas of concern
                                     that OTS has about an institution.




                     Material Loss Review of First Bank of Idaho (OIG-10-036)           Page 30
                   Appendix 3
                   Glossary




Formal agreement                   A type of formal enforcement action authorized by
                                   statute. Formal agreements are generally more severe
                                   than informal actions and are disclosed to the public.
                                   Formal actions are also enforceable through the
                                   assessment of civil money penalties.

Full-scope examination             Examination activities performed during the
                                   supervisory cycle that (1) are sufficient in scope to
                                   assign or confirm an institution’s CAMELS composite
                                   and component ratings; (2) satisfy core assessment
                                   requirements; (3) result in conclusions about an
                                   institution’s risk profile; (4) include onsite supervisory
                                   activities; and (5) generally conclude with the
                                   issuance of a report of examination.

Generally accepted                 A widely accepted set of rules, standards,
accounting principles              and procedures for reporting financial information
                                   established by the Financial Accounting Standards
                                   Board.

Impairment                         Decline in fair value of a loan below the amortized
                                   cost basis.

Information technology             An examination that includes review and evaluation
examination                        of the overall management of information systems
                                   used by a thrift and of the effectiveness of the internal
                                   audit and security functions for those systems.

Interest reserve                   An account established by the lender to periodically
                                   advance funding to pay interest charges on the
                                   outstanding balance of a loan.

Matter requiring                   A practice noted during an OTS
board attention                    examination of a thrift that deviates from sound
                                   governance, internal control, and risk management
                                   principles. The matter, if not addressed, may
                                   adversely affect the thrift’s earnings or capital, risk
                                   profile, or reputation or may result in substantive
                                   noncompliance with laws or regulations, internal
                                   policies or processes, supervisory guidance, or
                                   conditions imposed in writing in connection with the


                   Material Loss Review of First Bank of Idaho (OIG-10-036)            Page 31
                     Appendix 3
                     Glossary




                                     approval of any application or other request by the
                                     institution. Although matters requiring board attention
                                     are not formal enforcement actions, OTS requires that
                                     thrifts address them. A thrift’s failure to do so may
                                     result in a formal enforcement action.

Nonaccrual assets                    A loan in which interest accruals have been
                                     suspended because full collection of principal is in
                                     doubt or interest payments have not been made for a
                                     sustained period of time.

Nonperforming loans                  Loans that are not earning income and for which
                                     (1) payment of principal and interest is no longer
                                     anticipated, (2) principal or interest is 90 days or more
                                     delinquent, or (3) the maturity date has passed and
                                     payment in full has not been made.

Participation loan                   A loan made by more than one lender and serviced by
                                     one of the participants. Participation loans make it
                                     possible for large borrowers to obtain bank financing
                                     when the amount borrowed exceeds the legal lending
                                     limit of an individual bank.

Prompt corrective action             A framework of supervisory actions for insured
                                     institutions that are not adequately capitalized. It was
                                     intended to ensure that action is taken when an
                                     institution becomes financially troubled in order to
                                     prevent a failure or minimize resulting losses. These
                                     actions become increasingly severe as an institution
                                     falls into lower capital categories. The capital
                                     categories are well-capitalized, adequately capitalized,
                                     undercapitalized, significantly undercapitalized, and
                                     critically undercapitalized. (See 12 U.S.C. § 1831o.)

                                     The prompt corrective action minimum requirements
                                     are as follows:




                     Material Loss Review of First Bank of Idaho (OIG-10-036)          Page 32
                      Appendix 3
                      Glossary




                                                              Tier 1/
                                         Total                Risk-              Tier 1/
                 Capital Category        Risk-Based           Based              Leverage
                                          10% or         and 6% or           and 5% or greater
                 Well-capitalizeda
                                          greater              greater
                 Adequately               8% or          and 4% or           and 4% or greater
                 capitalized              greater              greater             (3% for 1-rated)
                                          Less           or    Less          or    Less than 4% (except
                 Undercapitalized
                                          than 8%              than 4%             for 1-rated)
                 Significantly            Less           or    Less          or    Less than 3%
                 undercapitalized         than 6%              than 3%
                                          Has a ratio of tangible equity to total assets that is equal
                 Critically
                                          to or less than 2 percent. Tangible equity is defined in
                 undercapitalized
                                          12 C.F.R. § 565.2(f).
                 a
                   To be well-capitalized, a bank also cannot be subject to a higher capital requirement
                 imposed by the Office of Thrift Supervision.

Risk-based capital                    The sum of Tier1 plus Tier 2 capital.

Risk-weighted asset                   An asset rated by risk to establish an institution’s
                                      minimum capital requirements. To weight assets by
                                      risk, an institution must assess the risk associated
                                      with the loans in its portfolio. Assets are risk-weighted
                                      in to four standard categories: 0 percent, 20 percent,
                                      50 percent, and 100 percent, with the highest risk
                                      assets in the 100 percent category. Institutions whose
                                      portfolios hold more risk have higher capital
                                      requirements.

Safety and soundness                  The part of an examination that includes a review and
                                      evaluation of each of the component CAMELS ratings
                                      (see explanation of CAMELS, above).


Stress testing                        Analysis that estimates the effect of economic or
                                      other changes on key performance measures, such as
                                      losses, delinquencies, and profitability. Key variables
                                      used in stress testing may include interest rates, FICO
                                      score distributions, asset values, growth rates, and
                                      unemployment rates.




                      Material Loss Review of First Bank of Idaho (OIG-10-036)                    Page 33
                     Appendix 3
                     Glossary




Subordinated debt                    Debt that is either unsecured or has a lower priority
                                     than that of another debt claim on the same asset or
                                     property. Subordinated debt is also called junior debt.

Tangible equity                      Total assets minus intangible assets minus total
                                     liabilities.


Tier 1 capital                       Common shareholder’s equity (common stock,
                                     surplus, and retained earnings), noncumulative
                                     perpetual preferred stock, and minority interests in the
                                     equity accounts of consolidated subsidiaries.

Tier 2 capital                       Subordinated debt, intermediate-term preferred stock,
                                     cumulative and long-term preferred stock, and a
                                     portion of the allowance for loan and lease losses.

Thrift financial report              A financial report that thrifts are required to file
                                     quarterly with OTS. The report includes detailed
                                     information about the institution's operations and
                                     financial condition and must be prepared in
                                     accordance with generally accepted accounting
                                     principles. The thrift financial report is similar to the
                                     call report required of commercial banks.

Transaction Account                  A component of the FDIC’s Temporary Liquidity
Guarantee Program                    Guarantee Program. The Temporary Liquidity
                                     Guarantee Program was established in October 2008
                                     as part of a coordinated effort by the FDIC, the
                                     Department of the Treasury, and the Federal Reserve
                                     to address unprecedented disruptions in credit markets
                                     and the resultant inability of financial institutions to
                                     fund themselves and make loans to creditworthy
                                     borrowers. The Temporary Liquidity Guarantee
                                     Program has two distinct components: (1) the Debt
                                     Guarantee Program and (2) the Transaction Account
                                     Guarantee Program. The FDIC guarantees certain
                                     senior unsecured debt issued by participating entities
                                     under the Debt Guarantee Program and all funds held
                                     in qualifying noninterest-bearing transaction accounts
                                     at participating insured depositary institutions under



                     Material Loss Review of First Bank of Idaho (OIG-10-036)             Page 34
                     Appendix 3
                     Glossary




                                     the Transaction Account Guarantee Program.
                                     Originally scheduled to expire on December 31, 2009,
                                     the Transaction Account Guarantee Program was
                                     extended in August 2009 until June 30, 2010.
                                     Participating insured depositary institutions pay an
                                     assessment fee for the additional guarantee.

Troubled condition                   A condition in which a thrift meets any of the
                                     following criteria: (1) OTS notifies it in writing that it
                                     has been assigned a composite CAMELS rating of 4 or
                                     5. (2) It is subject to a capital directive, a C&D order,
                                     a consent order, a formal written agreement, or a
                                     prompt corrective action directive relating to its safety
                                     and soundness or financial viability. (3) OTS informs it
                                     in writing of its troubled condition based on
                                     information available to OTS. Such information may
                                     include current financial statements and reports of
                                     examination.

Wholesale funding                    Funding obtained by financial institutions through such
                                     sources as federal funds, public funds, FHLB
                                     advances, the Federal Reserve’s primary credit
                                     program, foreign deposits, and brokered deposits.




                     Material Loss Review of First Bank of Idaho (OIG-10-036)           Page 35
                   Appendix 4
                   Chronology of Significant Events




The following chronology describes significant events in the history of First Bank of
Idaho, FSB, including examinations conducted, major problems identified, and
enforcement actions taken by the Office of Thrift Supervision (OTS).

3/31/1997 The institution is established as a state-chartered bank under the name
          First Bank of Idaho.

8/11/1998 First Bank of Idaho establishes a branch office in Bellevue, Idaho.

6/30/1999 First Bank of Idaho reorganizes.

7/1/1999     First Bank of Idaho’s holding company, Sun Valley Bancorp (SVB), is
             formed.

7/12/1999 First Bank of Idaho establishes a branch office in Hailey, Idaho.

3/19/2001 First Bank of Idaho changes its (1) name to First Bank of Idaho, FSB;
          (2) institution class to OTS-supervised savings bank; (3) organization type
          to stock savings bank; (4) primary regulatory agency from the Federal
          Deposit Insurance Corporation (FDIC) to OTS.

6/12/2001 OTS begins a safety and soundness examination that is completed on
          July 18, 2001, which results in CAMELS composite and component
          ratings of 2/222222.

6/18/2001 First Bank of Idaho establishes a branch office in Jackson, Wyoming, and
          begins accepting deposits under the name First Bank of Idaho, doing
          business as First Bank Advisors.

2/5/2002     OTS waives a condition of charter approval based on the commitment by
             First Bank of Idaho’s board of directors to maintain core and total risk-
             based capital ratios of at least 7 percent and 11 percent, respectively,
             and to keep capital adequate in relation to risk.

7/29/2002 OTS begins a safety and soundness examination that is completed on
          September 4, 2002, which results in CAMELS composite and component
          ratings of 3/323322. The exam lists several corrective actions relating to
          deficiencies in all CAMELS component areas.




                   Material Loss Review of First Bank of Idaho (OIG-10-036)       Page 36
                   Appendix 4
                   Chronology of Significant Events




11/18/2002 OTS conducts a field visit and concludes that substantial improvements in
           addressing concerns from the July 29, 2002, examination have been
           made.

8/18/2003 OTS begins a safety and soundness examination that is completed on
          September 15, 2003, which results in an upgraded CAMELS composite
          rating of 2 and component ratings of 222221. Capital improved due to
          infusions by the holding company.

8/30/2004 OTS begins a safety and soundness examination that is completed on
          September 24, 2004, which results in CAMELS composite and
          component ratings of 2/222221. As of June 30, 2004, the thrift’s risk-
          based capital ratio is below the 11 percent target set forth in the OTS
          conditions of approval, but corrective actions are in place.

12/31/2004 First Bank of Idaho’s assets grew 19.1 percent to $286.2 million during
           2004. Brokered deposits and borrowings constituted 22.8 percent of
           funding.

8/29/2005 OTS begins a safety and soundness examination that is completed on
          September 19, 2005, which results in CAMELS composite and
          component ratings of 2/222111. Again, OTS notes significant growth.
          Capital was enhanced by infusions from the holding company.

12/31/2005 According to OTS’s internal failed bank review, First Bank of Idaho’s
           assets grew 16.9 percent, to $334.7 million during 2005. Core deposits
           represent 68 percent of total deposits, and wholesale funding declines to
           17.5 percent of funding.

1/19/2006 OTS approves First Bank of Idaho’s request to lower its internal risk-
          based capital target from 11 percent to 10.5 percent.

8/7/2006    OTS begins a safety and soundness examination that is completed on
            August 29, 2006, which results in an upgraded CAMELS composite
            rating of 1 and component ratings of 221111. The report notes that
            capital and asset quality are satisfactory.

12/31/2006 First Bank of Idaho’s assets grew 22.5 percent, to $409.9 million. Core
           deposits represent 68 percent of deposits, and brokered deposits and
           borrowings total 15.5 percent of funding. Nonperforming assets total
           0.63 percent of assets.


                   Material Loss Review of First Bank of Idaho (OIG-10-036)    Page 37
                   Appendix 4
                   Chronology of Significant Events




2/28/2008 First Bank of Idaho’s president/CEO resigns. An interim CEO is hired on a
          6-month contract or until a qualified permanent replacement is found.

3/3/2008     OTS begins a safety and soundness examination that is completed on
             May 15, 2008, which results in a CAMELS composite rating of 2 and
             component ratings of 222111. OTS notes that asset quality has
             deteriorated.

3/31/2008 First Bank of Idaho’s land and construction loans total 369 percent of
          risk-based capital. Nonperforming assets total 0.92 percent of assets.
          Core deposits are 70.2 percent of total deposits, and brokered deposits
          and borrowings increase to 27.8 percent of funding.

6/12/2008 First Bank of Idaho notifies OTS about a potential loss of $1 million on a
          substandard loan. Subsequent quarterly monitoring of the June 30 thrift
          financial report and discussions with the thrift reveal material
          deterioration in credit quality. OTS schedules an onsite field visit for
          September 2008.

6/30/2008 Land and construction loans total 371 percent of risk-based capital.
          Nonperforming assets total 1.83 percent of assets. Core deposits decline
          to 64 percent of deposits, and brokered deposits and borrowings increase
          to 30.2 percent of funding.

9/29/2008 OTS begins a limited-scope examination. The examination is completed
          on October 16, 2008, and results in a downgraded CAMELS composite
          rating of 3 and component ratings of 332321. OTS’s findings confirm
          that the thrift’s financial condition has deteriorated and that enforcement
          action should be pursued.

9/30/2008 Land and construction loans total 362 percent of First Bank of Idaho’s
          risk-based capital, and nonperforming assets equal 4.05 percent of its
          total assets. The thrift’s risk-based capital ratio is 10.69 percent; its core
          deposits equal 64 percent of total deposits; and brokered deposits and
          borrowings increase to 35.6 percent of funding.

12/23/2008 OTS enters into a memorandum of understanding with First Bank of Idaho
           that includes (1) that the board develop, adopt, and submit a
           comprehensive business plan that includes meeting tier 1 core and total
           risk-based capital ratio minimums of 8 percent and 12 percent,


                   Material Loss Review of First Bank of Idaho (OIG-10-036)       Page 38
                   Appendix 4
                   Chronology of Significant Events




             respectively; (2) a prohibition of any dividends or capital distributions
             without prior notification to OTS; (3) a requirement to maintain an
             adequate allowance for loan and lease losses; (4) a requirement to hire an
             independent consultant to conduct a comprehensive review of the thrift’s
             asset quality and to provide a report containing findings and
             recommendations for asset quality improvements; (5) a requirement for
             the board to adopt a classified asset reduction plan and submit quarterly
             variance reports to OTS; (6) a requirement to limit construction and land
             acquisition lending, including extending the maturity or replenishing
             existing interest reserve accounts on such loans and limiting the thrift
             from making new extensions of credit to borrowers whose loans are
             classified or have been written off; and (7) a requirement that the board
             adopt a written liquidity and funds management contingency plan.

12/31/2008 First Bank of Idaho’s quarterly loss of $5.6 million results in the decline of
           its risk-based capital ratio to 9.55 percent, reducing the thrift’s prompt
           corrective action capital category to adequately capitalized.
           Nonperforming assets total 4.9 percent of total assts. Land and
           construction loans total 402 percent of risk-based capital. Core deposits
           fall to 59 percent of deposits, while brokered deposits and borrowings
           increase to 40.3 percent of funding. The thrift’s annual asset growth was
           10.9 percent.

1/28/2009 OTS’s discussions with First Bank of Idaho indicate that the thrift’s asset
          quality has deteriorated significantly. First Bank of Idaho’s correspondent
          banks cancel credit lines. OTS initiates the process for receiving daily
          liquidity monitoring reports.

2/17/2009 First Bank of Idaho submits a business plan and a classified asset
          reduction plan to OTS in accordance with the December 23, 2008,
          memorandum of understanding.

2/20/2009 OTS begins a limited-scope examination, which results in a downgraded
          CAMELS composite rating of 4 and composite ratings of 443441. OTS
          notes increasing levels of classified assets, large operating losses, and
          dim prospects for additional capital. Enforcement actions are
          recommended.

3/2/2009     The OTS Western Region enforcement committee agrees to pursue formal
             enforcement actions against the thrift.




                   Material Loss Review of First Bank of Idaho (OIG-10-036)       Page 39
                  Appendix 4
                  Chronology of Significant Events




3/9/2009    First Bank of Idaho’s risk-based capital ratio declines to 9.71 percent, or
            adequately capitalized, as of December 31, 2008, in accordance with a
            revised thrift financial report that the institution filed on March 9, 2009.
            OTS downgrades the thrift’s liquidity and composite ratings to 4, based
            on continuing asset quality deterioration.

3/9/2009    OTS issues a troubled condition letter to (1) notify the thrift that it is
            adequately capitalized pursuant to the prompt corrective action
            framework; (2) impose a growth restriction; (3) require notice and
            approval for change of director or senior officer; (4) limit severance and
            indemnification payments; (5) require notice to and nonobjection of OTS
            for senior executive officer and director employment contracts and
            compensation arrangements; (6) prohibit the thrift’s entry into contracts
            outside the normal course of business without OTS nonobjection; (7)
            prohibit capital distributions without prior OTS nonobjection; and (8)
            notify the thrift that it is subject to the brokered deposit and interest rate
            restrictions set forth at 12 C.F.R § 337.6.

3/23/2009 OTS begins a safety and soundness examination. The examination is not
          completed and a report is not issued because First Bank of Idaho is closed
          and put in receivership before the examination could be finished.

3/25/2009 The Federal Reserve Bank of San Francisco reduces its credit line to First
          Bank of Idaho from $140 million to $80 million.

3/26/2009 The Federal Reserve Bank of San Francisco notifies First Bank of Idaho of
          restrictions on its borrowing rate, effective April 2, 2009.

3/31/2009 First Bank of Idaho’s risk-based capital is 9.67 percent, and its
          nonperforming assets represent 4.77 percent of total assets. Land and
          construction loans total 390 percent of risk-based capital. Core deposits
          total 53 percent of deposits, and brokered deposits and borrowings
          increase to 43.2 percent of funding.

4/6/2009    The boards of SVB and First Bank of Idaho execute Stipulation and
            Consent to Issuance of Orders to Cease-and-Desist.

4/9/2009    OTS conducts an offsite review. First Bank of Idaho’s cash flow analysis
            submitted on April 8, 2009, showed that the thrift would be unable to
            meet its liquidity needs over the next 15 days. OTS downgrades First
            Bank of Idaho’s CAMELS composite rating to 5.


                  Material Loss Review of First Bank of Idaho (OIG-10-036)          Page 40
                   Appendix 4
                   Chronology of Significant Events




4/10/2009 Senior OTS supervisory officials meet with the First Bank of Idaho board
          by telephone to obtain a consent agreement. The thrift’s board holds a
          special meeting and resolves to consent to OTS’s appointment of a
          conservator or receiver for the thrift.

4/10/2009 The cease and desist order is made public.

4/17/2009 First Bank of Idaho advises OTS that deposit outflows are averaging $4
          million a day and that its internal cash flow forecast indicates few options
          available to prevent a funding shortfall by April 23, 2009.

4/23/2009 The OTS Western Region recommends that the OTS Director appoint
          FDIC as receiver for First Bank of Idaho.

4/24/2009 OTS closes First Bank of Idaho, and FDIC is appointed as receiver of the
          thrift. U.S. Bank, National Association, acquires all First Bank of Idaho
          deposits and certain assets.




                   Material Loss Review of First Bank of Idaho (OIG-10-036)     Page 41
                Appendix 5
                OTS First Bank of Idaho Examinations and Enforcement Actions




                This appendix lists the Office of Thrift Supervision’s (OTS) full scope
                safety and soundness examinations of First Bank of Idaho beginning
                August 2005 until the thrift’s failure in April 2009 and provides
                information on the significant results of those examinations. Also listed
                are three limited scope examinations OTS performed during 2008 and
                2009. These limited examinations did not include matters requiring board
                attention or corrective actions. Generally, matters requiring board
                attention represent the most significant items requiring corrective action
                found by the examiners.

                                        Significant safety and soundness
                                        matters requiring board attention,
                                        corrective actions, recommendations
Date                        Assets      and other issues cited in reports of         Formal
examination     CAMELS      (in         examinations and limited examination         Enforcement
started/ended   rating      millions)   reports                                      Action
8/29/2005       2/222111    $337        Matters requiring board attention            None
9/19/2005                               • None

                                        Corrective actions
                                        • None

                                        Other issues
                                        • Capital adequacy: The thrift’s total
                                          risk-based capital ratio fell below the
                                          internal 11.0 percent target in the
                                          third quarter of 2004, but was raised
                                          above the target in the following
                                          quarter after the thrift issued stock to
                                          raise capital.
                                        • Concentrations: Commercial real
                                          estate loans are identified as a
                                          concentration at 230.4 percent of
                                          core capital.
                                        • Concentrations: Land loans are
                                          identified as a concentration at 222.1
                                          percent of core capital.
                                        • Concentrations: Commercial business
                                          loans are identified as a concentration
                                          at 108.8 percent of core capital.
                                        • Concentrations: Brokered deposits are
                                          identified as a concentration at 167.5
                                          percent of core capital.
                                        • Management/Administration: OTS
                                          suggested to management that they



                Material Loss Review of First Bank of Idaho (OIG-10-036)                    Page 42
                Appendix 5
                OTS First Bank of Idaho Examinations and Enforcement Actions




                                        Significant safety and soundness
                                        matters requiring board attention,
                                        corrective actions, recommendations
Date                        Assets      and other issues cited in reports of       Formal
examination     CAMELS      (in         examinations and limited examination       Enforcement
started/ended   rating      millions)   reports                                    Action
                                          continue to review all compliance
                                          policies on an ongoing basis to
                                          ensure that it reflects changing
                                          compliance requirements, cover
                                          current operating practices and is
                                          user friendly.
8/07/2006       1/221111    $351        Matters requiring board attention          None
8/29/2006                               • None

                                        Corrective actions
                                        • Asset quality: Management should
                                          increase their efforts to improve
                                          credit administration and loan
                                          documentation.
                                        • Asset quality: The board should
                                          enhance its appraisal policy to ensure
                                          that independence is maintained in
                                          the appraisal process.
                                        • Asset quality: Management should
                                          ensure that appraisals are performed
                                          in accordance with board approved
                                          policies.
                                        • Asset quality: Management should
                                          ensure that loan participation
                                          purchases are conducted in
                                          accordance with board approved
                                          policies.

                                        Other issues
                                        • Capital adequacy: The thrift’s non-
                                          homogeneous assets (commercial real
                                          estate, commercial, construction and
                                          land loans) increased to $222.4
                                          million, or 63.3 percent of total
                                          assets, increasing the thrift’s
                                          concentration of credit in higher risk
                                          loans.
                                        • Earnings: OTS stated that
                                          management should continue to
                                          closely monitor the rising general and



                Material Loss Review of First Bank of Idaho (OIG-10-036)                  Page 43
                Appendix 5
                OTS First Bank of Idaho Examinations and Enforcement Actions




                                        Significant safety and soundness
                                        matters requiring board attention,
                                        corrective actions, recommendations
Date                        Assets      and other issues cited in reports of        Formal
examination     CAMELS      (in         examinations and limited examination        Enforcement
started/ended   rating      millions)   reports                                     Action
                                          administrative expenses to ensure
                                          overall profitability does not become
                                          negatively impacted as the bank
                                          continues to grow.
                                        • Concentrations: Commercial real
                                          estate loans are identified as a
                                          concentration at 228.2 percent of
                                          core capital.
                                        • Concentrations: Land loans are
                                          identified as a concentration at 261.9
                                          percent of core capital.
                                        • Concentrations: Commercial business
                                          loans are identified as a concentration
                                          at 83.9 percent of core capital.
                                        • Concentrations: Brokered deposits are
                                          identified as a concentration at 127.2
                                          percent of core capital.
3/03/2008       2/222111    $441        Matters requiring board attention           None
5/15/2008                               • Management: Provide OTS with an
                                          update of the thrift’s progress with
                                          hiring a chief executive officer
                                          (CEO)/president.
                                        • Management: Submit a copy of
                                          strategic plan to OTS.
                                        • Management: Provide OTS with
                                          notification of action taken regarding
                                          loan to insider.

                                        Corrective actions
                                        • Asset quality: Management needs to
                                          enhance its concentration risk
                                          reporting, and aggressively monitor
                                          its land loans especially in the Teton
                                          and Ketchum regions.
                                        • Asset quality: Management needs to
                                          continue its efforts to ensure that
                                          loan covenants are enforced.
                                        • Asset quality: Management should
                                          ensure that appraisals are performed
                                          in accordance with board approved



                Material Loss Review of First Bank of Idaho (OIG-10-036)                   Page 44
                Appendix 5
                OTS First Bank of Idaho Examinations and Enforcement Actions




                                        Significant safety and soundness
                                        matters requiring board attention,
                                        corrective actions, recommendations
Date                        Assets      and other issues cited in reports of        Formal
examination     CAMELS      (in         examinations and limited examination        Enforcement
started/ended   rating      millions)   reports                                     Action
                                          policies. If the Sage Capital, LLC loan
                                          is not refinanced outside the thrift a
                                          compliant appraisal should be ordered
                                          and the credit classification rating
                                          reviewed.
                                        • Management/Administration: Update
                                          the conflict of interest and
                                          Regulation O policies.

                                        Other issues
                                        • Management/Administration: Prior to
                                          the start of the examination, First
                                          Bank of Idaho’s president and CEO
                                          resigned.
                                        • Capital adequacy: The thrift’s non-
                                          homogeneous assets (commercial real
                                          estate, commercial, construction and
                                          land loans) increased to $309 million,
                                          or 70.1 percent of total assets,
                                          increasing the thrift’s concentration
                                          of credit in higher risk loans.
                                        • Asset quality: During the
                                          examination, OTS recommended that
                                          the thrift enhance its concentration
                                          risk management as found in the OTS
                                          guidance on commercial real estate
                                          concentrations issued in the
                                          December 14, 2006, Interagency
                                          Policy Statement.
                                        • Asset quality: Watch list and special
                                          mention credits increased by 92
                                          percent.
                                        • Asset quality: Loans graded
                                          substandard or worse increased from
                                          $1.4 million to $5.7 million, or 307
                                          percent.
                                        • Concentrations: Land loans are
                                          identified as a concentration at 252.2
                                          percent of risk-based capital.
                                        • Concentrations: Construction loans



                Material Loss Review of First Bank of Idaho (OIG-10-036)                   Page 45
                Appendix 5
                OTS First Bank of Idaho Examinations and Enforcement Actions




                                        Significant safety and soundness
                                        matters requiring board attention,
                                        corrective actions, recommendations
Date                        Assets      and other issues cited in reports of        Formal
examination     CAMELS      (in         examinations and limited examination        Enforcement
started/ended   rating      millions)   reports                                     Action
                                          are identified as a concentration at
                                          123.7 percent of risk-based capital.
                                        • Concentrations: Non-homogenous
                                          loans are identified as a concentration
                                          at 696.5 percent of risk-based
                                          capital.
9/29/2008       3/332321    $477          A limited scope onsite examination        MOU
10/16/2008                                was conducted to determine the
                                          impact of the weakening local
(Limited                                  economy on the thrift’s financial
Examination)                              condition. The limited scope included
                                          review of asset quality, capital,
                                          earnings, and liquidity management.
                                          Based on OTS’s findings, the thrift
                                          was downgraded form a composite 2
                                          to 3. OTS noted significant
                                          deterioration in asset quality and
                                          significant increases in classified
                                          assets and non-homogeneous loan
                                          concentrations. OTS recommended
                                          entering in to a memorandum of
                                          understanding (MOU) with First Bank
                                          of Idaho and provided the proposed
                                          memorandum with the report of
                                          examination.
2/20/2009       4/443441    $492          OTS conducted a comprehensive,            None
3/09/2009                                 limited offsite review of the thrift’s
                                          December 31, 2008, regulatory
(Limited                                  financial reports and business plan.
Examination)                              OTS downgraded the thrift to a
                                          composite 4, primarily due to the
                                          increasing volume of severity of
                                          classified assets. First Bank of Idaho
                                          filed an amended thrift financial
                                          report on March 9, 2009, reflecting a
                                          fall from well-capitalized to
                                          adequately-capitalized. OTS notified
                                          the thrift’s board of directors of the
                                          ratings downgrade, its fall to
                                          adequately-capitalized status, and



                Material Loss Review of First Bank of Idaho (OIG-10-036)                   Page 46
                     Appendix 5
                     OTS First Bank of Idaho Examinations and Enforcement Actions




                                                Significant safety and soundness
                                                matters requiring board attention,
                                                corrective actions, recommendations
Date                               Assets       and other issues cited in reports of        Formal
examination        CAMELS          (in          examinations and limited examination        Enforcement
started/ended      rating          millions)    reports                                     Action
                                                   troubled condition status in a
                                                   March 9, 2009 letter.
4/09/2009          5/443451        NA              OTS conducted a comprehensive,           Cease and
4/09/2009                                          limited examination of the thrift        Desist Order
                                                   which resulted in the downgrade of
(Limited                                           its composite rating from 4 to 5. OTS
Examination)                                       noted that the thrift’s liquidity had
                                                   fallen to a critically deficient level
                                                   which threatened its continued
                                                   viability. OTS informed the thrift’s
                                                   board of directors that failure was
                                                   highly probable and that it must take
                                                   immediate action to improve its
                                                   liquidity level. OTS issued cease and
                                                   desist orders to the thrift and its
                                                   holding company on April 6, 2009.
                                                   Both cease and desist orders were
                                                   consented to by the board of
                                                   directors.
Source: OIG analysis of OTS reports of examinations for First Bank of Idaho.




                     Material Loss Review of First Bank of Idaho (OIG-10-036)                       Page 47
                      Appendix 6
                      Prior OIG Material Loss Review Recommendations




We have completed seven mandated material loss reviews of failed thrifts since April
2008, starting with the material loss review of NetBank, FSB. This appendix provides
our recommendations to the Office of Thrift Supervision (OTS) resulting from these
reviews. OTS management concurred with the recommendations and has taken or
planned corrective actions that are responsive to the recommendations. In certain
instances, the recommendations address matters that require ongoing OTS
management and examiner attention.

 Report Title                                         Recommendations to OTS Director
 Safety and Soundness: Material Loss Review of        Ensure that the recommendations/lessons
 NetBank, FSB, OIG-08-032 (Apr. 23, 2008)             learned from OTS’s internal assessments of the
                                                      NetBank failure, as described on pages 21 and
 OTS closed NetBank and appointed the Federal         28 of that report, are implemented.
 Deposit Insurance Corporation (FDIC) as receiver
 on September 28, 2007. At that time, FDIC            Re-emphasize to examiners that for 3-rated
 estimated that NetBank’s failure would cost the      thrifts, formal enforcement action is presumed
 Deposit Insurance Fund $108 million.                 warranted when certain circumstances identified
                                                      in the OTS Examination Handbook are met.
                                                      Examiners are also directed to document in the
                                                      examination files the reason for not taking
                                                      formal enforcement action in those
                                                      circumstances.

                                                      Establish in policy a process to assess the
                                                      causes of thrift failures and the supervision
                                                      exercised over the institution and to take
                                                      appropriate action to address any significant
                                                      supervisory weaknesses or concerns identified.
 Safety and Soundness: Material Loss Review of        Ensure that action is taken on the lessons
 IndyMac Bank, FSB, OIG-09-032 (Feb. 26,              learned and recommendations from the OTS
 2009)                                                internal review of the IndyMac failure.

 OTS closed IndyMac on July 11, 2008, and             Caution examiners that assigning composite
 named FDIC as conservator. As of May 8, 2009,        CAMELS ratings of 1 or 2 to thrifts with high-
 FDIC estimated that IndyMac’s failure would          risk, aggressive-growth business strategies
 cost the Deposit Insurance Fund $10.7 billion.       needs to be supported with compelling, verified
                                                      mitigating factors. Such mitigating factors
                                                      should consider things such as the institution’s
                                                      corporate governance, risk management
                                                      controls, allowance for loan and lease losses
                                                      methodologies, concentration limits, funding
                                                      sources, underwriting standards, and capital
                                                      levels and whether the mitigating factors are
                                                      likely to be sustainable in the long-term. Another
                                                      important factor that should be considered is the
                                                      extent to which the thrift offers nontraditional
                                                      loan products (regardless of whether loans are
                                                      sold or retained) that have not been stress-



                      Material Loss Review of First Bank of Idaho (OIG-10-036)                    Page 48
                     Appendix 6
                     Prior OIG Material Loss Review Recommendations




Report Title                                         Recommendations to OTS Director
                                                     tested in difficult financial environments and
                                                     whether the thrift can adequately manage the
                                                     risks associated with such products. OTS should
                                                     re-examine and refine as appropriate its guidance
                                                     in this area.
Safety and Soundness: Material Loss Review of        Remind examiners of the risks associated with
Ameribank, Inc., OIG-09-036 (Apr. 7, 2009)           rapid growth in high-risk concentrations.

OTS closed Ameribank and appointed FDIC as           Remind examiners to conduct more thorough
receiver on September 19, 2008. As of                loan sampling from the portfolio if they identify a
December 31, 2008, FDIC estimated that               rapid increase in concentration.
Ameribank’s failure would cost the Deposit
Insurance Fund $33.4 million.                        Remind examiners of the examination guidance
                                                     for thrift third-party relationships, with particular
                                                     attention to the assessment of the risk the
                                                     relationship may pose to the thrift’s safety and
                                                     soundness.

                                                     Assess the need for guidance requiring risk
                                                     assessment of construction rehabilitation
                                                     account loans as an integral part of assessing
                                                     the thrift’s overall risk.

                                                     Ensure that the recommendations and the
                                                     lessons learned from OTS’s internal assessment
                                                     of the Ameribank failure are implemented.
Safety and Soundness: Material Loss Review of        Ensure that the recommendations from OTS’s
PFF Bank and Trust, OIG-09-038 (June 12,             internal assessment of the PFF failure are
2009)                                                implemented and that the lessons learned from
                                                     the assessment are taken into account going
OTS closed PFF and appointed FDIC as receiver        forward. In this regard, OTS should do the
on November 21, 2008. As of May 8, 2009,             following:
FDIC estimated that PFF’s failure would cost the
Deposit Insurance Fund $729.6 million.               •   Direct examiners to closely review and
                                                         monitor thrifts that refuse to establish
                                                         appropriate limits of concentrations that
                                                         pose significant risk and pursue corrective
                                                         action when concentration limits are not
                                                         reasonable.
                                                     •   Formally communicate the guidance in ND
                                                         Bulletin 06-14 as to OTS’s expectation that
                                                         concentration measurements and limits be
                                                         set as a percentage of capital, not just as a
                                                         percentage of total assets or loans.

                                                     •   Formally communicate the need for a sound
                                                         internal risk management system that
                                                         includes stress testing, regular periodic



                     Material Loss Review of First Bank of Idaho (OIG-10-036)                       Page 49
                    Appendix 6
                    Prior OIG Material Loss Review Recommendations




Report Title                                        Recommendations to OTS Director
                                                         monitoring, and other risk management tools
                                                         for higher-risk concentrations.
Safety and Soundness: Material Loss Review of       Ensure that the recommendations from OTS’s
Downey Savings and Loan, FA, OIG-09-039             internal assessment of the Downey failure are
(June 15, 2009)                                     implemented and that the lessons learned from
                                                    the assessment are taken into account going
OTS closed Downey and appointed FDIC as             forward. In this regard, OTS should do the
receiver on November 21, 2008. As of May 8,         following:
2009, FDIC estimated that Downey’s failure
would cost the Deposit Insurance Fund $1.4          •   Direct examiners to closely review and
billion.                                                monitor thrifts that refuse to establish
                                                        appropriate limits of concentrations that
                                                        pose significant risk and pursue corrective
                                                        action when concentration limits are not
                                                        reasonable.
                                                    • Assess the need for more guidance for
                                                        examiners on determining materiality of
                                                        concentrations and determining appropriate
                                                        examiner response to high-risk
                                                        concentrations, including when to impose
                                                        absolute limits to prevent excessive
                                                        concentration.
                                                    • Formally communicate the need for a sound
                                                        internal risk management system that
                                                        includes stress testing, regular periodic
                                                        monitoring, and other risk management tools
                                                        for higher-risk concentrations.
                                                    • Formally communicate the guidance in ND
                                                        06-14 as to OTS’s expectation that
                                                        concentration measurements and limits be
                                                        set as a percentage of capital, not just as a
                                                        percentage of assets or loans.
Safety and Soundness: Material Loss Review of       Ensure that the recommendations from OTS’s
Suburban Federal Savings Bank, OIG-09-047           internal assessment of the Suburban failure are
(Sept. 11, 2009)                                    implemented and that the lessons learned from
                                                    the assessments are taken into account going
OTS closed Suburban and appointed FDIC as           forward.
receiver on January 30, 2009. As of August 14,
2009, FDIC estimated that Suburban’s failure        Ensure that regional offices more closely monitor
would cost the Deposit Insurance Fund $126          and scrutinize the amendments to thrift financial
million.                                            reports made by institutions for accuracy and
                                                    consider appropriate action where chronic errors
                                                    are found, including enforcement action and
                                                    assessment of civil money penalties.

                                                    Have regional offices ensure that examiners
                                                    conduct timely and adequately scoped field visits
                                                    to determine whether thrifts with repeat



                    Material Loss Review of First Bank of Idaho (OIG-10-036)                    Page 50
                     Appendix 6
                     Prior OIG Material Loss Review Recommendations




Report Title                                         Recommendations to OTS Director
                                                     problems have taken appropriate corrective
                                                     action. In the event that the field visits find that
                                                     corrective action has not been taken, examiners
                                                     should be instructed to elevate the supervisory
                                                     response, including the taking of enforcement
                                                     action when necessary.
Safety and Soundness: Material Loss Review of        Ensure that the recommendations from OTS’s
American Sterling Bank, OIG-10-011 (November         internal review of the ASB failure are
24, 2009)                                            implemented and that the lessons learned from
                                                     the review are taken into account going forward.
OTS closed American Sterling Bank and
appointed FDIC as receiver on April 17, 2009.        Remind supervisory and examination staff of the
As of October 31, 2009, FDIC estimated that          importance of requiring thrifts to hold capital, as
American Sterling Bank’s failure would cost the      required by federal banking regulations, to
Deposit Insurance Fund $41.9 million.                mitigate their recourse exposure on sold loans.

                                                     Remind supervisory and examination staff to
                                                     properly scrutinize capital contributions made to
                                                     thrifts, especially noncash capital contributions.

                                                     Ensure supervisory and examination staff take
                                                     forceful action to mitigate losses whenever a
                                                     thrift’s line of business incurs losses that
                                                     threaten the viability of this institution.




                     Material Loss Review of First Bank of Idaho (OIG-10-036)                      Page 51
Appendix 7
Management Response




Material Loss Review of First Bank of Idaho (OIG-10-036)   Page 52
Appendix 8
Major Contributors to This Report




Jeffrey Dye, Audit Director
Jaideep Mathai, Audit Manager
Amnoiphorn Samson, Auditor in Charge
John B. Gauthier, Auditor
Michelle Littlejohn, Referencer




Material Loss Review of First Bank of Idaho (OIG-10-036)   Page 53
Appendix 9
Report Distribution




Department of the Treasury

    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Office of Thrift Supervision

    Acting Director
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

United States Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member
    Committee on Finance

U.S. House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services

Federal Deposit Insurance Corporation

    Chairman
    Inspector General

U.S. Government Accountability Office

    Acting Comptroller General of the United States




Material Loss Review of First Bank of Idaho (OIG-10-036)   Page 54
